U. S. Department of the Interior
Office of Inspector General


                                   Audit Report
                 IMPROVEMENTS MADE
           IN GENERAL CONTROLS O VER
      AUTOMATED INFORMATION SYSTEMS

                     OFFICE OF SURFACE MINING
                RECLAMATION AND ENFORCEMENT




Picture courtesy of OSM




                                   Report No. 01-I-415
                                      September 2001
U.S. Department o the Interior                                  Office of Inspector General

                         EXECUTIVE SUMMARY
                   Improvements Made in General Controls
                    Over Automated Information Systems,
           Office of Surface Mining Reclamation and Enforcement
                             Report No. 01-I-415
                              September 2001
                                 The Office of Surface Mining Reclamation and
BACKGROUND
                                 Enforcement (OSM) is dependent on automated information
                                 systems to support its mission and to provide reliable data
                                 for its annual financial statements. The Division of
                                 Information Systems Management is responsible for
                                 facilitating controls and efficient and effective use of
                                 information technologies and information resources to
                                 support the OSM mission.

OBJECTIVE                        The objective of the audit was to determine whether the
                                 actions taken by the OSM satisfactorily implemented the 38
                                 recommendations in our prior audit report titled “General
                                 and Application Controls Over Automated Information
                                 Systems, Office of Surface Mining Reclamation and
                                 Enforcement,” (No. 00-I-138) and whether any new
                                 recommendations were warranted.

RESULTS IN BRIEF                 We concluded that the OSM had made substantial progress
                                 in correcting the weaknesses identified in our prior audit
                                 report and in improving general controls over the OSM’s
                                 automated information systems. Based on actions taken
                                 previously and as a result of our current audit, we
                                 considered 37 of the 38 recommendations resolved and
                                 implemented.

                                 We made four new recommendations to the OSM that
RECOMMENDATIONS
                                 should correct the weaknesses identified in our current
                                 report.

                                 The OSM concurred with the report’s four
AUDITEE COMMENTS
AND OFFICE OF                    recommendations and agreed to take the recommended
INSPECTOR GENERAL                corrective actions.
COMMENTS
                                                                         A-IN-OSM-001-00-M



                       United States Department of the Interior
                                  Office of Inspector General
                                  National Information Systems Office
                                    134 Union Boulevard, Suite 510
                                        Lakewood, Colorado 80228



                                                                         September 21, 2001


                                 AUDIT REPORT
Memorandum

To:      Director, Office of Surface Mining Reclamation and Enforcement

From:    Diann Sandy
         Director, National Information Systems Office

Subject: Improvements in General Controls Over Automated Information Systems, Office of
         Surface Mining Reclamation and Enforcement (No. 01-I-415)

We reviewed the actions taken by the Office of Surface Mining Reclamation and
Enforcement (OSM) to determine whether the OSM satisfactorily implemented the 38
recommendations in our December 1999 audit report titled “General and Application
Controls Over Automated Information Systems, Office of Surface Mining Reclamation and
Enforcement” (No 00-I-138) to improve general controls over the OSM’s automated
information systems. We also determined whether any new recommendations were
warranted. In addition, we performed this audit to support the Office of Inspector General’s
opinion on the OSM’s financial statements by evaluating the reliability of the general
controls over automated systems that support the annual financial statements.


                                        RESULTS OF AUDIT
                          We concluded that the OSM had made substantial progress in
   The OSM                improving general controls over its automated information systems
   Improved               by implementing 37 of the 38 recommendations contained in our
   General                prior audit report. We found that before the start of our current
   Controls Over          audit, the OSM implemented 29 of the 38 recommendations from
                          our prior audit. Based on our current audit, the OSM implemented
   Its Automated
                          an additional 8 recommendations. The one prior audit
   Systems                recommendation awaiting implementation pertains to contingency
                          plans. Our current audit made four new recommendations
                          concerning the completion of corrective actions and the
                          improvement of security management and access controls.
The OSM recently improved controls in the following areas.

Risk Management

In our prior report we recommended that risk assessments be
conducted (Recommendation A.2). The OSM prepared risk
assessments of its five mission-critical information systems, and
senior management approved these assessments.

Reviewing Users’ Access to Systems

In our prior report we recommended that the OSM develop and
implement procedures to periodically review users’ levels of
access to systems to ensure that the access levels are current and
appropriate (Recommendation E.3). The OSM Division of
Financial Management completed its review of access levels of all
users of its systems, and the OSM has implemented procedures to
ensure that periodic reviews of all users levels of access to all
OSM systems would be performed.

Notifying System Administrators of Changes in Users’
Employment Status

In our prior report we recommended that the OSM develop and
implement procedures to promptly notify system administration
personnel of users’ employment terminations or reassignments of
duties (Recommendation E.4). The OSM developed procedures
for promptly notifying system administration personnel of system
users’ employment terminations or reassignments.

Separation of Duties

In our prior report we recommended that policies and procedures
be implemented to ensure separation of duties between reviewing
and controlling system logs and administering system access
controls (Recommendations K.3 and M.1). In addition, we
recommended that application programmers should not be
responsible for moving changed software into the production
environment and should not have access to update or change
production data (Recommendation M.2). The OSM developed
policies and procedures for maintaining, controlling, and reviewing
system logs and ensured that personnel who were responsible for
maintaining the logs did not review or control the logs or
administer access to the systems. In addition, the OSM
implemented procedures, which it believes alleviates the separation
of duty risks, for moving changed software to the production
environment. Further, in the OSM’s next risk analysis, the OSM

                                 2
                  will address the risk associated with the separation of duties in
                  moving changed software into production and ensure that OSM
                  management officials accept any residual risk.

                  Software Development and Change Management Controls

                  In our prior report we recommended that the OSM’s policies and
                  procedures for software development and change management be
                  enforced (Recommendation N.1). The OSM developed policies to
                  ensure that all application software changes are properly
                  authorized, tested, and approved prior to being moved into
                  production and that access to software programs is controlled. In
                  addition, the OSM established an Independent Security Officers
                  Review Team to perform periodic reviews of software
                  development and change management to ensure that OSM policies
                  are followed.

                  We found that further improvements are needed in the following
Further           areas.
Improvement in
System Security   Finalize and Test System Contingency Plan
Management and
Access Controls   In our prior report we recommended that contingency plans
                  intended for telecommunications links, facilities, and the data
Are Needed        center be finalized and tested and that test results be used to update
                  these plans. Additionally, we recommended that assurance should
                  be provided that personnel are trained to implement the plans
                  (Recommendation O.2). The OSM had not finalized the systems
                  contingency plan and had not tested the continuity of operations
                  plan for the OSM headquarters operations. The OSM officials said
                  that the planning for service continuity was ongoing but the plan
                  had not been completed, approved, and finalized. Until the
                  headquarters contingency planning is completed and tested, the
                  OSM remained vulnerable to loss of systems operations caused by
                  a loss of computing capability due to an unexpected event.

                  Reevaluate Position Sensitivity Classifications

                  Although the OSM implemented personnel security policies and
                  procedures, we found that position sensitivity classifications were
                  not always based on the duties and risks of the positions. For
                  example, system administrator positions that had full access and
                  control over systems were not designated as critical public trust
                  positions. Without adequate classification of positions warranting
                  critical public trust and the commensurate security clearances, the
                  risk was increased that the OSM systems could be compromised or
                  impaired. The OSM needs to reevaluate its positions for

                                                    3
                  performing information systems duties to determine the inherent
                  security risks and sensitivity of these positions and properly
                  classify the positions of high risk.

                  New User Access

                  The OSM policy requires granting access to new users of systems
                  to be documented and approved by system security managers or
                  system owners. We found, however, that access was granted to the
                  Applicant Violator System (AVS), which is a major application,
                  based on verbal requests via telephone communication. Granting
                  access to the AVS by verbal request does not ensure that the
                  request is authentic and that responsible managers or supervisors
                  have authorized the new user access request. Using this type of
                  authorizing procedure subjects the AVS to the risk of unauthorized
                  use and uncontrolled acts. The OSM needs to ensure that new user
                  access to the AVS is granted in accordance with established OSM
                  access control procedures.

                  Remote Access

                  The OSM had established remote access connectivity to some of
                  its information systems via dialup to a modem pool; however, all
                  available security practices to control unauthorized dialup access
                  were not implemented. For example, we found that the telephone
                  numbers for the remote-access modem pool were not periodically
                  changed and that a call-back feature to specifically authorized
                  remote-user telephone numbers was not implemented.
                  Additionally, the OSM had not established other available security
                  measures for remote-access users (via modem and the Internet
                  from home computers) such as requiring specific virus protection
                  on the remote computers. The OSM management needs to
                  strengthen remote access controls and safeguards to protect the
                  OSM systems from unauthorized intrusion, virus threats, and cyber
                  attacks.

                  We recommend that the Director, OSM:
Recommendations
                      1. Fully implement our prior report Recommendations A.2, C.1,
                  E.3, E.4, K.3, M.1, M.2, N.1, and O.2; or institute other alternative or
                  compensating controls adequate to correct the weaknesses; or if certain
                  weaknesses are an acceptable risk, document the risk acceptance in a
                  formal (management approved) risk assessment.




                                                   4
                 2. Reevaluate the appropriateness of designated sensitive or high
             risk positions and the respective duties and obtain the necessary security
             clearances for personnel filling these sensitive or critical public trust
             positions.

                 3. Ensure that the OSM’s established policies and procedures are
             followed when granting new users’ access to the Applicant Violator
             System.

                 4. Establish remote-access control procedures and remote user-set
             parameters and strengthen the existing practices by providing added
             control features and required settings or document the acceptance of
             risk in a formal (management approved) risk assessment.

             Based on the May 30, 2001 (Appendix 2) and July 3, 2001 (Appendix
 OSM         3) responses, we consider Recommendation 1 resolved but not
 Response    implemented and have requested additional information for
             Recommendations 2, 3, and 4. The OSM agreed with the
 and OIG
             recommendations, but needs to provide target dates for implementation
 Reply       of actions planned and titles of officials responsible for implementation.
             The May 30, 2001 response to Recommendation 1 stated that the only
             remaining corrective actions regarding our prior report’s
             recommendations would be to complete Recommendation O.2 during
             June and August 2001. Additionally, the OSM provided the latest draft
             version of the Continuity of Operations Plan (Management Plan, Test
             Plan, and Schedule) for its headquarters systems operations. As stated
             in the Results of Audit section, the OSM draft plan still needs to be
             finalized and tested.

             The mission of the OSM is to implement the provisions of the
Background   Surface Mining Control and Reclamation Act and to ensure that
             society and the environment are protected from the adverse effects
             of surface and subsurface coal mining operations. The OSM
             activities include issuing mining permits, inspecting mining
             operations, enforcing mining standards, ensuring the effectiveness
             of authorized state and tribal regulatory programs, and promoting
             reclamation of surface mine lands.

             The OSM is dependent on automated information systems to
             support its mission and provide reliable data for its financial
             statements. The Division of Information Systems Management is
             responsible for facilitating the systems controls and efficient and
             effective use of information technologies to support the OSM
             mission. Various OSM organizations, including the Division of
             Information Systems Management, the Division of Financial
             Management, assistant directorates, and regional and field offices
             share responsibilities over the OSM systems. Nationwide,
             automated data processing support is provided through local area
                                               5
              network-based servers and microcomputer workstations, and the
              networks are interconnected by the OSM-wide area network.

              Our audit was conducted at the OSM’s headquarters in
Scope and     Washington, D.C., and its data center in Denver, Colorado. Our
Methodology   audit was performed in accordance with the “Government Auditing
              Standards,” issued by the Comptroller General of the United
              States. Accordingly, we included such tests of the records and
              other auditing procedures that were considered necessary under the
              circumstances. Additionally we used the review methodologies
              contained in the U.S. General Accounting Office’s “Federal
              Information System Controls Audit Manual.” As part of our
              review we evaluated only the internal controls related to the
              general control environment over the OSM’s automated
              information systems.

              Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the
              Office of Inspector General to list this report in its semiannual report to
              the Congress. In addition, the Office of Inspector General provides
              audit reports to the Congress.

              This report is intended for the information of management of the
              Department of the Interior, the Office of Management and Budget,
              and the Congress. However, this report is a matter of public
              record, and its distribution is not limited.




                                                6
                                                                               APPENDIX 1



   SUMMARY OF RECOMMENDATIONS AND CORRECTIVE ACTIONS
            FOR THE DECEMBER 1999 AUDIT REPORT
    “GENERAL AND APPLICATION CONTROLS OVER AUTOMATED
       INFORMATION SYSTEMS, OFFICE OF SURFACE MINING
         RECLAMATION AND ENFORCEMENT” (No. 00-I-138)

                                                                Status of Recommendations
Recommendations
                                                                and Corrective Actions
A.1. Determine the risks associated with each of the            Implemented.
systems and, based on the results of the risk assessments,
establish appropriate security policies and procedures.
A.2. Ensure that risk assessments are conducted in              Implemented.
accordance with Federal guidelines which recommend that
risk assessments support the acceptance of risk and the
selection of appropriate controls. Specifically, the risk
assessments should address significant risks affecting
sensitive systems and major applications, appropriately
identify controls implemented to mitigate those risks, and
formalize the acceptance of residual risk.
A.3. Formally assign and communicate responsibility to          Implemented.
those individuals required to participate in assessing risks.
B.1. Provide resources to ensure that automated                 Implemented.
information systems security plans are developed for the
OSM’s general support systems and major applications in
accordance with the Computer Security Act; Office of
Management and Budget Circular A-130, Appendix III; and
the National Institute of Standards and Technology’s
Special Publication 800-18.
B.2. Ensure that the automated information systems              Implemented.
security function is elevated organizationally to report
directly to the OSM’s Chief Information officer and
formally provide the position with the authority to
implement and enforce a computer security program
throughout the OSM.
B.3. Report the lack of security plans for the OSM’s            Implemented.
sensitive systems as a material weakness in the OSM’s
annual assurance statement on management controls for
fiscal year 1999.
C.1. Ensure that personnel security policies and procedures     Implemented.
are developed, implemented, and enforced, including those
for obtaining appropriate security clearances for personnel
filling sensitive or critical public trust positions.
C.2. Ensure that all automated data processing contractor       Implemented.
employees have proper background clearances.


                                             7
                                                                               APPENDIX 1


                                                                Status of Recommendations
Recommendations
                                                                and Corrective Actions
C.3. Ensure that periodic reinvestigations are completed        Implemented.
every 5 years on personnel who are in public trust high risk
positions.
D.1. Develop and implement policies to classify the OSM’s       Implemented.
computer resources in accordance with the results of
periodic risk assessments and guidance contained in Office
of Management and Budget Circular A-130, Appendix III.
E.1. Institute a policy of “least privilege” access levels to   Implemented.
ensure that access to resources and data is limited to those
users who require such access.
E.2. Develop and implement policies and procedures for          Implemented.
approving access to the automated information systems that
include the formal assignment of responsibility for
approving systems access.
E.3. Develop and implement procedures to ensure that user       Implemented.
access levels are periodically reviewed to ensure that the
current access provided is appropriate.
E.4. Develop and implement procedures to ensure that            Implemented.
system administration personnel are promptly notified of
changes in employee assignments or employment
terminations.
E.5. Implement controls to ensure that system owners            Implemented.
approve all access to their applications in accordance with
the OSM’s policy.
F.1. Develop and implement policies and procedures              Implemented.
establishing the maximum number of log-in attempts
allowed for the OSM’s automated information systems in
compliance with Department of the Interior regulations.
F.2. Ensure that the systems log-in warning message is the      Implemented.
first screen displayed upon initial access and prior to the
user being authenticated as a valid system user.
G.1. Develop and implement password policies and                Implemented.
procedures. In addition, controls to ensure compliance with
these policies and procedures should be implemented.
G.2. Implement a policy requiring system administration         Implemented.
personnel to log on to the automated information systems
under specific user IDs.
G.3. Evaluate current capabilities and implement                Implemented.
procedures to address encryption or other security methods
to help prevent powerful system passwords and accounts
from being compromised when traveling across a network,
such as the wide area network and the Internet.




                                             8
                                                                               APPENDIX 1


                                                                Status of Recommendations
Recommendations
                                                                and Corrective Actions
H.1. Develop policies and procedures to ensure that             Implemented.
controls are in place to protect the Novell network operating
system and other system software from unauthorized
modification or manipulation.
I.1. Identify and implement the technical controls necessary    Implemented.
to ensure that only authorized users have access to the
Novell file servers. The controls should include using the
“SECURE CONSOLE” command in the autoexec.ncf file,
encrypting the “RCONSOLE” password, and using the
“LOCK CONSOLE” command.
J.1. Install a firewall system for the Division of Financial    Implemented.
Management’s local area network.
K.1. Evaluate acquiring systems verification and auditing       Implemented.
software.
K.2. Implement the systems options available in each of the     Implemented.
operating systems to record activities affecting the systems.
K.3. Implement policies and procedures to ensure that           Implemented.
systems logs are used and are maintained for an appropriate
amount of time to provide an adequate audit trail of systems
activities and are controlled by personnel independent of the
systems access control administration function.
K.4. Develop and implement procedures to ensure that            Implemented.
periodic reviews of systems logs for unauthorized or
inappropriate activities are performed and that unauthorized
or inappropriate activities are reported to the OSM
management.
L.1. Establish policy and procedures for ensuring that          Implemented.
available software updates and service packs are reviewed
to identify those that should be implemented to address an
applicable systems vulnerability.
L.2. Implement procedures to ensure that those updates          Implemented.
which are determined to be needed are implemented in a
timely manner.
M.1. Implement procedures to ensure that personnel who          Implemented.
perform access control administration are not the same
individuals who review and control systems security logs
and systems audit trails.
M.2. Implement controls to ensure that application              Implemented.
programmers are not responsible for moving changed
software into the production environment and do not have
access to update/change production data.




                                             9
                                                                                  APPENDIX 1


                                                                  Status of Recommendations
Recommendations
                                                                  and Corrective Actions
N.1. Enforce OSM’s written policies and procedures to             Implemented.
ensure that all application programs and modifications are
properly authorized, tested, and approved and that access to
and distribution of programs is controlled.
N.2. Establish the process of correcting applications             Implemented.
deficiencies as a high priority to reduce manual processes.
N.3. Review change requests timely to ensure that user            Implemented.
requirements are supported in the applications.
O.1. Ensure that a contingency plan is developed for critical     Implemented.
telecommunications links.
O.2. Ensure that contingency plans for telecommunications         Partially implemented. The
links, facilities, and the data center are finalized and tested   OSM had not completed and
and that test results are used to update these plans.             finalized its contingency plans
Additionally, assurance should be provided that personnel         or fully tested the plan for its
are trained to implement the plans.                               headquarters operations.
O.3. Provide for a secure off-site storage facility that is at    Implemented.
least 1 mile from the computer facility.
P.1. Develop and implement a formal incident response             Implemented.
plan and team.




                                              10
                                                           APPENDIX 2




Note: ALL ATTACHMENTS NOT INCLUDED BY OFFICE OF THE INSPECTOR GENERAL.




                              11
     APPENDIX 2




12
     APPENDIX 2




13
     APPENDIX 2




14
     APPENDIX 2




15
                                                                            APPENDIX 3


            OFFICE OF SURFACE MINING
      RESPONSE TO IG AUDIT RECOMMENDATIONS
                    JULY 3, 2001

        OSM reviewed the Draft Audit Report Number A-IN-OSM-001-00-M, and has
concurred with the IG conclusions that OSM has made substantial progress in correcting
the prior identified weaknesses. In our last response to this Draft Audit report we
neglected to comment on items listed under Recommendations made to the Director,
OSM. Our comments are as follows:

       2. Reevaluate the appropriateness of designated sensitive or high risk
          positions and the respective duties and obtain the necessary security
          clearances for personnel filling these sensitive or critical public trust
          positions.

Response: OSM concurs with the IG on this item and offers the following response:

        OSM will reevaluate the appropriateness of designated sensitive or high risk
positions and respective duties and obtain the necessary security clearances. The security
clearance of the position with be commensurate with actual duties and access to
information and systems.


       3. Ensure that the OSM’s established policies and procedures are followed
          when granting new users’ access to the Applicant Violator System.

Response: OSM concurs with the IG on this item and offers the following response:

         OSM will ensure that established policies and procedures are followed when
granting new users’ access to the Applicant Violator System. All new user access from
within OSM or from the States and Tribes will have the appropriate documentation prior
to the issuance of access.

       4. Establish remote-access control procedures and remote user-set
          parameters and strengthen the existing practices by providing added
          control features and required settings or document the acceptable risk in
          a formal (management approved) risk assessment.

Response: OSM concurs with the IG on this item and offers the following response:

        OSM is currently reviewing our remote-access procedures and will implement
procedures to increase security. Remote-access guidelines for granting user access will
be reviewed to keep access to an as needed basis. Current accounts have been reviewed
and inactive accounts deleted.



                                          16
                                                             APPENDIX 4



     STATUS OF AUDIT REPORT RECOMMENDATIONS

    Finding/
Recommendation
    Reference        Status                   Actions Required

      1          Resolved; not     No further response to the Office of
                 implemented.      Inspector General is required. The
                                   recommendations will be forwarded to
                                   the Assistant Secretary for Policy,
                                   Management and Budget for tracking
                                   of implementation.

  2, 3, and 4    Management        Provide the Office of Inspector
                 concurs;          General with target dates for actions
                 additional        planned and titles of officials
                 information       responsible for implementation.
                 requested.




                              17
                       ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                      Internet Complaint Form Address
                  http://www.oig.doi.gov/hotline_form.html

                     Within the Continental United States
U.S. Department of the Interior           Our 24-hour
Office of Inspector General               Telephone HOTLINE
1849 C Street, N.W.                       1-800-424-5081 or
Washington, D.C. 20240-0001               (202) 208-5300

                                          TDD for hearing impaired
                                          (202) 208-2420


                     Outside the Continental United States

Caribbean Region

   U.S. Department of the                 (703) 235-9221
          Interior
Office of Inspector General
Eastern Division – Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

Pacific Region

U.S. Department of the Interior           (671) 647-6060
Office of Inspector General
Guam Field Pacific Office
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Agana, Guam 96911




                                     18
